                                                                                        September 16, 2013

Memorandum

To:           Rhea Suh
              Assistant Secretary for Policy, Management and Budget

Attention:    Eric Eisenstein
              Division Chief, Internal Control and Audit Follow-up
              Office of Financial Management

From:         Hannibal M. Ware
              Eastern Regional Manager for Audits, Inspections, and Evaluations

Subject:      Verification Review – Verify Implementation of Recommendation in the “U.S.
              Department of the Interior Program Startup Inspection: Bureau of Reclamation
              WaterSMART Grant Program” (Report No. ER-IS-BOR-0012-2011)
              Report No. VI-VS-BOR-0006-2013

        The U.S. Department of the Interior (DOI), Office of Inspector General (OIG), completed
a verification review of the one recommendation presented in the subject report. Our objective
was to determine whether the Bureau of Reclamation (USBR) implemented the recommendation
as reported to the Office of Financial Management (PFM), Office of Policy, Management and
Budget. Our review determined that the recommendation is resolved and implemented.

Background

       The November 10, 2011 report, “U. S. Department of the Interior Program Startup
Inspection: Bureau of Reclamation WaterSMART Grant Program,” contained one
recommendation focused on management of the grant program to ensure continuity should
personnel changes occur.

       In a December 9, 2011 memorandum to OIG, USBR concurred with the
recommendation, agreeing to develop Directives and Standards (D&S) to provide clear, internal
guidance on program requirements and procedures for the WaterSMART Grant Program. On
December 15, 2011, we referred the recommendation to PFM for implementation tracking. PFM
reported on September 13, 2012, that USBR had implemented the recommendation, and PFM
subsequently closed the recommendation.

Scope and Methodology

         Our scope was limited to determining whether USBR implemented the recommendation.
We reviewed the supporting documentation provided by USBR officials. We did not perform any
site visits or conduct fieldwork to determine whether the underlying deficiencies that were

                         Office of Audits, Inspections, and Evaluations | Herndon, VA
initially identified have actually been corrected. As a result, this review was not conducted in
accordance with the Generally Accepted Government Auditing Standards or the Quality
Standards for Inspection and Evaluation as put forth by the Council of the Inspectors General on
Integrity and Efficiency.

Results of Review

       USBR implemented the recommendation as indicated by its closure.

Recommendation 1: The Director of the Bureau of Reclamation should develop and implement
clear internal programmatic policies and procedures that focus on managing the grant program to
ensure continuity if personnel changes occur.

Action Taken: USBR developed a temporary D&S establishing Bureauwide policies and
procedures focused on management of the WaterSMART grant program, including
establishment of uniform requirements to promote consistency and efficiency in program
implementation. The temporary D&S had the full force of a permanent D&S and became official
policy on August 14, 2013. We consider the recommendation resolved and implemented.

Conclusion

      We informed USBR officials of the results of this review at an exit conference on
August 26, 2013. USBR officials agreed with the results.


cc:    Michael Connor, Commissioner, Bureau of Reclamation
       Rosa (Elaine) Ferrari, Audit Liaison Coordinator, Bureau of Reclamation
       Patrick McHugh, Staff Accountant, Office of Financial Management
       Nancy Thomas, Audit Liaison, Office of the Secretary




                                               2
